IN FORMh P/^/PfO 4

■. ^ ^ ^ ^ n n

MOTION TO LEAVE TO

1

The

■

■’

■

'”'

NO. : 19-1462

vs.
Paul C. LaRosa, III AND Chris Sankowski
The United State Court Of Appeals
For The Fourth District

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

262 Old Bridge Dr.
Bluffton, South Carolina

29910
Jakkiepidanick@vahoo.com
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston, South Carolina 29407
October 15th 2020

7

’’•

s

^

■ ■■'

h

^nprt (J S.

OFFICE Oi- If <U luuh’K

Jacqueline Pidanick

Friend to the Court

■

APR 2 0 2C20
I

Pro Se

■

ki i* Li Vi0, d u Li

SUPREME COURT OF THE UNITED SrTAJES

JACQUEUN&PIDANICK

*

j

4

4

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

The

SUPREME COURT OF THE UNITED STATES
NO. : 19-1462

Jacqueline Pidanick

vs.
Paul C. LaRosa, III AND Chris Sankowski
The United State Court Of Appeals
For The Fourth District

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

E PIDANICK

Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina
29910
Jakkiepidanick@vahoo.com
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston, South Carolina 29407
June 30th 2020

l

'/i

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The appellate asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and toproceed in forma pauperis.
Appellate affidavit or declaration in support of this motion is attached hereto.

Thank-you

Jacqueline Pidanick
262 Old Bridge Drive Bluffton, SC
29910

2

v..

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

AFFIDAVIT OR DECLARATION
IN SUPPORT OF MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

I, Jacqueline Pidanick, am the appellate in the above-entitled cases. In support of my
motion to proceed in forma pauperis, I state that because of my poverty I am unable to
pay the costs of this case or to give security therefor; and I believe I am entitled to
redress.

1. For both you and your spouse estimate the average amount of money received
from each of the following sources during the past 12 months. Adjust any amount
that was received weekly, biweekly, quarterly, semiannually, or annually to show
the monthly rate. Use gross amounts, that is, amounts before any deductions for
taxes or otherwise. Please note the Appellate is single and cares for a son with
autism/adhd and a little girl on own.
INCOME SOURCE
Average monthly amount over the past 12 months /

Amount expected

next month
1. Employment 42,000 (12months) / 3,800 (one month) I am self employed and
have tax return upon request
2. Child support is 2,750 a month which is allowed for school, and sitters for work
hours outside 8 to 3 hours, cloths, food, care for my daughter.
3. Total income 6,550 a month

3

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

EMPLOYMENT History
The, Petitioner has been a trainer and nutritionist for 21 years and has worked for
herself during this time renting gyms to train clients in. Please note lack of full
work due to coronavirus.
4. I only have 780.00 roughly that is mine, in my account but need to pay the
mortgage with this too.
5. List the assets, and their values, which you own or your spouse owns, and
ordinary household furnishings.
A. Home Value 200,000 Mortgage is 179,000 roughly
B. Motor Vehicle #1 Year, make & model. ADVENTURE TOYOTA 2019 valued at
30,000 ((my last car quit and I had enough trade in (value) to place down on a
car).
6. State the persons who rely on you or your spouse for support, instead of names
1

A. JU , My Son , he is about to 9 and is special needs.
B. OM , My Daughter she is 6
8. Estimate the average monthly expenses of you and your family. (Rounded)
A. Mortgage is

$1,150

B. Utilities

$210

C. Repairs

900 new doors water leak in front door

D. Food

$400

E. Clothing $250
F. Nothing on dry cleaning
g. Medical and dental

$50

4

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

h. Transportation $100 for gas
I. Home insurance 250 a month roughly
Life insurance 400 a month roughly
Health insurance 300 a month roughly
Motor insurance 150 a month roughly
Taxes I do quarterly (these are on hold due to virus)
J. Installment payments.
Motor 600.00
Credit cards 150
Sitters 395 a week (I work at 6 am to about 5 each day) 1,580 a month

9. I do not expect major changes in my income. ( my income is decreasing again do to
COVID spike)
10. I am on a list to try to obtain help with this case and since this filing is above my
knowledge I will try to pay for some guidance, as always. This is on hold, lawyers wish
not to meet due to virus. I have been waiting for paper too I was only allowed 4 to 5
packs at a time.
11. Will again paid in donations in time totaling 300 (saving if virus decreases and
States open) for aid to be taught how to do the Writ Of Certiorari for the Supreme
Court and make corrects, I am signed up to receive .
I, Jacqueline works 12 hour days to make the bills and support my children after
facing fraud upon the court. To keep my daughter safe from a known 20 year abuser I
have done and filed all and hope I have make this last push to the Supreme Court.

5

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

Thank yoii ! Smcerely

Jatqueline Pidanick
262 Old bridge dr.
Bluffton SC
29910

I declare under penalty of perjury that the foregoing is true and correct.
Date: June 30th 2020
Jacqueline Pidanick

6

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

The

SUPREME COURT OF THE UNITED STATES
No. : 19-1462

Jacqueline Pidanick
vs.
■5*

Paul C. LaRosa, III AND Chris Sankowski

The United State Court Of Appeals
For The Fourth District

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

JACQUELINE PIDANICK
Pro Se
Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina
29910
Jakkiepidanick@vahoo.com

7

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O.Box 12279
Charleston, South Carolina 29407
June 30th 2020

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies
of appellate’s MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS, via e-mail
and USPS Priority mail, postage prepaid, this June 30th 2020. Pursuant to Sup. Ct. R.
29(5)(c) and 28 U.S.C. § 1746, declaration is included herein.
[See Attached Service List]

JACQUELINE RJDANICK
Pro Se
/71 Friend to the Court
(/
262 Old Bridge Dr.
Bluffton, South Carolina
29910
Jakkiepidanick@vahoo.com
Date: June 30th 2020
Service list
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston, South Carolina 29407

Oath
State of South Carolina

8

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

I, Jacqueline Pidanick , after being first duly sworn according to law, do hereby
make oath, verify, state, and affirm, pursuant to the penalties of perjury under the laws
of the United States, and by the provisions of 28 USC § 1746, that all statements
included in the above and foregoing CERTIFICATE OF SERVICE for PETITION FOR
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS, are true and correct
representations, to the best of my knowledge, information and belief.
Dated: June 30th 2020

Thank you
Jacqueline Pidanick

9

The Supreme Court Of The United States, Case No. 19-1462

The

SUPREME COURT OF THE UNITED STATES
No. : 19-1462

Jacqueline Pidanick
vs.
Paul C. LaRosa, III AND Chris Sankowski

On Petition For A Writ Of Certiorari To The United State Court Of Appeals
For The Fourth District

PETITION FOR WRIT OF CERTIORARI
PIDANICK

luei

Pro Se
Friend to the Court

•1:

262 Old Bridge Dr.
Bluffton, South Carolina
29910
Jakkiepidanick@vahoo.com
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O.Box 12279
Charleston, South Carolina 29407
August 3rd 2020

1

The Supreme Court Of The United States, Case No. 19-1462

QUESTIONS PRESENTED FOR REVIEW
CAN POLICE CONTINUE TO ACT OUTSIDE THE LAW WITHOUT OVERSIGHT AND
ACCOUNTABILITY? While riots consume our great nation due to the wrongful acts of the
authorities, do we dare say again it’s ok to allow police to harass and kill their nation? The issue
here goes beyond a miscarriage of justice. It’s lower court’s blatant and outright refusal to
administer justice, when law warrants otherwise; it’s contrary to what this court in Mitchum v.
Foster, 407 U.S. 225, 240, (1972) proclaimed, “throw open the doors of the United States courts
to those whose rights under the Constitution are denied or impaired”, and scream for justice.
Honorable court I, Ms. Pidanick is screaming. There is utter refusal from state courts to oversee
proper justice, MURDERS by abuser parents are increasingfast, same with unanimous
adoptions of the House ofRepresentatives to aid child safety since courts/judges lack integrity to
do so.... (GEORGE WASHINGTON UNIVERSITY LAW SCHOOL.)

A. Did the court Error when reviewing and ruling on appellant’s, Ms. Pidanick’s Case,
wrongfully omitting aspects of the written statement (post) in question to falsely create a
“true threat.” Moving words together creating a false narrative the court can easily blame
on the plaintiff to hide the courts unlawful actions?
B. Did the Court Error on splitting Plaintiffs complaint to purposely weaken Ms. Pidanick’s
case when RACKETEERING involves two or more individuals. Did The court wrongly
split up Ms. Pidanick’s case into two cases to weaken her case?
C. Should a deputy and SLED officer have Immunity and be free to scare and intimidate the
public without recourse, ex-specially when dealing with a victim reporting crimes and
practicing her first amendment right?

2

The Supreme Court Of The United States, Case No. 19-1462

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

2

TABLE OF AUTHORITIES

.4

STATEMENT OF BASIS FOR JURISDICTION

,9

STATEMENT OF THE CASE

9

REASON FOR GRANTING THE WRIT

13

A. Did the court Error when reviewing and ruling on appellant’s, Ms. Pidanick’s Case,
wrongfully omitting aspects of the written statement (post) in question to falsely create a
“true threat.” Moving words together creating a false narrative the court can easily blame
on the plaintiff to hide the courts unlawful actions?
B. Did the Court Error on splitting Plaintiffs complaint to purposely weaken Ms. Pidanick’s
case when RACKETEERING involves two or more individuals. Did The court wrongly
split up Ms. Pidanick’s case into two cases to weaken her case?
C. Should a deputy and SLED officer have Immunity and be free to scare and intimidate the
public without recourse, ex-specially when dealing with a victim reporting crimes and
practicing her first amendment right?
CONCLUSION

38

APPENDIX

42

3

The Supreme Court Of The United States, Case No. 19-1462

TABLE OF AUTHORITIES
CASES
Allen F. Moore v. Stanley F. Sievers, 336 Ill. 316; 168 N.E. 259 (1929)
Baker v Rangos,229 Pa.Super,333,324 A.2d 498(1974).
Bankers Life and Casualty Co. v. Holland, 346 U.S 379,383, (1953), or conduct amounting to
“usurpation of [the judicial] power, ” De Beers Consolidated mines, Ltd v. United States, 325
U.S. 212, 217, (1945)
Bulloch v. United States, 763 F.2d 1115, 1121 (10th Cir. 1985)
Elonisv. U.S, 13-983. (Sp.Ct. 2015)
Frowenv Blank,493 Pa.137,425 A.2d,413(1981)
Greenwood v Kadodoich , 239 Pa.Super,372,357 A.2d 604(1976)
Gomez v Toledo, 446 US 635, 638 (1980)
Kenner v. C.I.R., 387 F.3d 689 (1968);
Leach v. E. I. du Pont de Nemours & Co., No. Ol-C-698 (Wood County W. Va. Cir. Ct.) ("Leach
Case ")
La Buy v. Howe ’s Leather Co., 352 U.S. 249, 256-258, (1957)
Ex parte Republic ofPeru 318 U.S. 578, 583, (1943)
Mallard v. U.S. Dist. Courtfor S. Dist. OfIowa, 499 U.S. 296, 309, (1989)
Marine Ins. Co. of Alexandria v. Hodgson, 11 U.S. (7 Cranch) 332, 336 (1813).
Neuman v Corn Exchange National Bank & Trust Co.,356 Pa.442,450-52,51 A.2d
759,764(1947)
Oxxford ClothesXX, Inc. v. Expeditors Int’l, Inc., 127 F.3d 574, 578 (7th Cir. 1997)
Pumphrey v. K. W. Thompson Tool Co., 62 F.3d 1128, 1131 (9th Cir. 1995)

4

The Supreme Court Of The United States, Case No. 19-1462

People v. Zajic, 88 Ill.App.3d 477, 410 N.E.2d 626 (1980)
Shane v Hoffmann,221 Pa.Super. 176.324 A.2d 532(1974)
Shane v Hoffman ,221 Pa.Super. 176,324 A2.d 532(1974)
Scaife Co. v Rockwell standard Corp,.446 Pa.280,285,285,A.2d 451.454(1971)
The People of the State ofIllinois v. Fred E. Sterling, 357 Ill. 354; 192 N.E. 229 (1934)
Transaero, Inc. v. La Fuerza Area Boliviano, 24 F.3d 457, 460 (2d Cir. 1994)
U.S. v. U.S. Dist. Court, 334 U.S 258 (1948)
Will v. United States, 389 U.S. 90, 95-96 (1967).
Warren Balderston Co. v Integrity Trust Co..,314 Pa.58.170 A.282(1934)
UNITED STATES CONSTITUTION
UNITED STATES CONSTITUTIONAL AMENDMENTS
Amendment I
Amendment VII
Amendment IX
The enumeration in the Constitution of certain rights shall not be construed to deny or disparage
others retained by the people.
Amendment XI [referenced in context to Fiduciary Duty]
The Eleventh Amendment does not protect state officials from claims for prospective relief
when it is alleged that state officials acted in violation of federal law, nor does it usurp the
Fourteenth Amendment Rights retained by the People. Tolman v. Finneran, 171 F. Supp. 2d 31
(D. Mass. 2001)
Amendment XIV

5

The Supreme Court Of The United States, Case No. 19-1462

The 14th Amendment to the Constitution was ratified on July 9, 1868, and granted
citizenship to all persons bom or naturalized in the United States, which included former slaves
recently freed. In addition, it forbids states from denying any person "life, liberty or property,
without due process of law" or to "deny to any person within its jurisdiction the equal protection
of the laws.”

STATUTES AND RULES
5 U.S.C. Sec. 552(a)(4)(B)
42 USC §1983 “provides a cause of action for the deprivation of any rights”
U.S.C 47 and Rule 3.3 Candor laws
Civil Rights Act in 1871
18 U.S.C. Sections 241 and 242
Moore’s Federal Practice 3d If 60.21 [4][a] (3d ed. 2003).
Conspiracy 18 U.S.C 371
The general purpose of this part of the statute is to protect governmental functions from
frustration and distortion through deceptive practices. Section 371 reaches "any conspiracy for
the purpose of impairing, obstructing or defeating the lawful function of any department of
Government." Tanner v. United States, 483 U.S. 107, 128 (1987); see Dennis v. United States,
384 U.S. 855 (1966). The "defraud part of section 371 criminalizes any willful impairment of a
legitimate function of government, whether or not the improper acts or objective are criminal
under another statute." United States v. Tuohey, 867 F.2d 534, 537 (9th Cir. 1989).
Racketeering 18 U.S.C 1030
Pattern of racketeering activity" requires at least two acts of racketeering activity
committed within ten years of each other. 18 U.S.C.A. § 1961(5) (West 1984). Congress
6

The Supreme Court Of The United States, Case No. 19-1462

intended a fairly flexible concept of a pattern in mind. H.J., Inc. v. Northwestern Bell Tel. Co.,
492 U.S. 229, 239, 109 S. Ct. 2893, 2900, 106 L. Ed. 2d 195 (1989). The government must show
that the racketeering predicates are related, and that they amount to or pose a threat of continued
criminal activity. Id. Racketeering predicates are related if they have the same or similar
purposes, results, participants, victims, or methods of commission, or otherwise are interrelated
by distinguishing characteristics and are not isolated events. Id. at 240, 109 S. Ct. at 2901; Ticor
Title Ins. Co. v. Florida, 937 F. 2d 447, 450 (9th Cir. 1991). Furthermore, the degree in which
these factors establish a pattern may depend on the degree of proximity, or any similarities in
goals or methodology, or the number of repetitions. United States v. Indelicato, 865 F. 2d 1370,
1382 (2d Cir.), cert, denied, 493 U.S. 811, 110 S. Ct. 56, 107 L. Ed. 2d 24 (1989).
Abuse of power 11.448 U.S.C
A person acting or purporting to act in an official capacity or taking advantage of such
actual or purported capacity commits a misdemeanor if, knowing that his or her conduct is
illegal.
Obstruction of justice
The Victim and Witness Protection Act of 1982 created a Federal civil cause of action
authorizing a United States District Court to restrain the "harassment" of crime victims and
witnesses or to prevent and restrain existing or imminent violations of 18 U.S.C. §§ 1512
(excluding those consisting of misleading conduct) and 1513. This amendment, which is codified
at 18 U.S.C. § 1514, defines "harassment" as "a course of conduct directed at a specific person
that causes substantial emotional distress.
Police Intimidation

7

The Supreme Court Of The United States, Case No. 19-1462

This law makes it unlawful for State or local law enforcement officers to engage in a
pattern or practice of conduct that deprives persons of rights protected by the Constitution or
laws of the United States. (34 U.S.C. § 12601)
Police misconduct can lead to a miscarriage ofjustice and sometimes
involves discrimination and or illegal motives ofsegregation combined as obstruction of
justice. In an effort to control police misconduct, there is an accelerating trendfor
civilian agencies to go beyond review to engage directly in investigations and to have
much greater input into disciplinary decisions. ”
United States Government Website
STATEMENT OF BASIS FOR .JURISDICTION
Article III of U.S. Constitution, 28 U. S. C. 1254, 1651, Sup. Ct. Rule 20
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
A. Amendment One "petition the government for a redress of grievances"
B. XIVth Amendment, deprive "any person of life, liberty, or property, without due process
of law"
C. XIVth Amendment, deprive “Equal protection under the law”
RELIEF SOUGHT
To alight of the evidence of fraud upon the court to rehear the case with a unbiased tannery of
fact and damages for dragging a mother of two small kids through the court falsely creating
nonfactual narratives to hide the actions of the State and County Police. Trust needs to be
restored.

8

The Supreme Court Of The United States, Case No. 19-1462

STATEMENT OF THE CASE
To understand this case brought forward to the Supreme Court of the United States, the
events leading up to, during and after the judgements need to be understood. This case like many
others originated in state family court. Where both lower courts avoided Ms. Pidanick’s claim for
no good cause. When Ms. Pidanick pushed the issue of delaying justice the courts created yet
another scheme changing Ms. Pidanick post to a narrative that fit the courts mold, re-victimizing
Ms. Pidanick creating a false narrative of Ms. Pidanick being a “true threat.” Ms. Pidanick wrote
in her post in question that framed Miss Pidanick as a “true threat” that “she would never hurt
anyone”, (post is in appendix) but the court quickly removed that sentence so the court could
throw out her claims by hiding it behind the courts new narrative of Ms. Pidanick being a false
“true threat.” How could a “true threat” exist if the plaintiff wrote “I would never hurt anyone” in
the post in question? It can’t. The Black Lives Movement fight in our streets due to injustice and
the court is yet allowing this injustice to rage on against Ms. Pidanick rights, all to hide
unconditional actions of police. Ms. Pidanick using her first amendment right and sharing a
yahoo article about judges dying for not following the law as horrific as it was, this was a article.
A article written by a reporter. A first Amendment right. Ms. Pidanick contains a 1500 page
affidavit full of evidence proven by the executive branch that corruption by judges, lawyers,
clerks and court has happened. So of course the court would want to hide this and get ride of Ms.
Pidanick for reporting the crimes of the court. Again, riots are happening in our streets right now,
today due to this abuse the court brings to our nation and to a innocent mother.
EXCEPTIONAL CIRCUMSTANCES
1. Reason presented in short above, abuse and usurpation of judicial power, constitutes
as exceptional circumstances, Roche, Supra 27. Instances of “clear abuse of

9

The Supreme Court Of The United States, Case No. 19-1462

discretion, ” Bankers Life and Casualty Co. v. Holland, 346 U.S 379,383, (1953), or
conduct amounting to “usurpation of [the judicial] power, ” De Beers Consolidated
mines, Ltd v. United States, 325 U.S. 212, 217, (1945), To Be entitled to issuance of
the writ”, Mallard v. U.S. Dist. Courtfor S. Dist. Of Iowa, 499 U.S. 296, 309, (1989).
2. Lower courts’ refusal to perform its true adjudicator role and duty, and instead,
corrupt the judicial process, constitutes an exceptional circumstance. Here, the actions
of the lower courts nullified its purpose and reasons for its existence. See La Buy v.
Howe’s Leather Co., 352 U.S. 249, 256-258, (1957), courts “refused to exercise its
function., cases were improperly referred to a master. The use of masters is too aid
judges in the performance of specific judicial duties., and not to displace the court.
The exceptional circumstances here warrant the use of the extraordinary remedy of
the writ.... Litigants are record for e.g. on reporter transcript corrections requested.
3.

The Beaufort County Sheriffs department was entrusted with evidence exposing an
abuser, Christopher Maddaloni, and the sheriffs department falsely destroyed evidence
and changed evidence tracking sheets to show no evidence was given to the department.
When in fact the sheriffs department was given a recorded admission of the abuse Mr.
Maddaloni committed when beating our 8-week old daughter. This is all outline and
confirmed by a investigative reporter for the DAILY COUNTER, in the article,
Jacqueline Pidanick denied help to protect her daughter. Beaufort County Sheriff
Department removed the recording from Ms. Pidanick’s phone. Yes at 8 weeks old Mr.
Maddaloni beat his daughter. The Beaufort County Sheriffs department covered up
the horrifying act and lied about not obtaining such information on their evidence
sheets. “The Evidence and Property Section is placed organizationally in the

10

The Supreme Court Of The United States, Case No. 19-1462

Administrative Division and is responsible for the receipt, storage, safekeeping, release
of all evidence, found and recovered property entrusted into the care of the Beaufort
County Sheriffs Office. A traceable property management system is utilized to ensure
that evidence is handled, documented and preserved to prevent contamination and /or
inadmissibility in court. This protocol begins at the receipt of an item and concludes
after the item has been legally and properly disposed.” The evidence in Ms. Pidanick’s
case was to be obtained for 7 (seven) years. This allows for fraud upon the court and is
a key fact to the main complaint falsely split up by the district federal court judge. The
Beaufort Country Sheriffs Dept. Admits falsely destroying evidence. SLED admits
Judge Fuge falsely sent SLED to intimidate the victim Ms. Pidanick, This is fraud upon
the court, conspiracy, RICO and abuse of power.
To go into further detail, Beaufort County Sheriffs Department states all evidence was
destroyed, implying evidence existed, when requesting the freedom of information act to release
Ms. Pidanick’s information in 2016/2018 then suddenly in 2018 the form reads no evidence was
submitted, the sheet doesn’t even read evidence was destroyed. This shows obstruction of justice
by the sheriffs department. Also, the police report on 2014 reads evidence was submitted of photos
of Olivia Maddaloni beaten by her dad also disappeared from the evidence file.
“Police misconduct can lead to a miscarriage of justice and sometimes
involves discrimination and or illegal motives of segregation combined as obstruction of
justice. In an effort to control police misconduct, there is an accelerating trend for civilian
agencies to go beyond review to engage directly in investigations and to have much
greater input into disciplinary decisions.”
United States Government Website (DOJ)

11

The Supreme Court Of The United States, Case No. 19-1462

“Whoever knowingly alters, destroys, mutilates, conceals, covers up, falsified, or
makes a false entry in any record, document, or tangible object with the intent to impede,
obstruct, or influence the investigation or proper administration of any matter within the
jurisdiction of any department or agency of the United States or any case filed under Title
11, or in relation to or contemplation of any such matter or case, shall be fined under this
title, imprisoned not more than 20 years, or both.”
United States Government Website (DOJ)
4. It is even more disturbing that the lawyer for SLED, Ms. Jackson states that The
victim/Plaintiff, Ms. Pidanick cannot request using the freedom of information act
without removing documents Robin Jackson feels are not necessary for the plaintiff to
see. This is of course not up to Ms. Jackson and as you are able to see by her emails
she attempts to block my right to the freedom of Information Act because it exposes
crimes by the SLED department. Of course she removed papers from my file. To be
blunt, That’s pretty corrupt.
Why remove my paperwork if SLED did nothing wrong? The Freedom of Information
act “a piece of legislation that grants public access to documents or other data in the possession
of a government agency or public authority”, states the United States Government, found on their
website. A violation “Judicial Proceedings Against an Agency: The Act provides for federal
district court jurisdiction in proceedings brought against an agency to enjoin its withholding of
records. See 5 U.S.C. Sec. 552(a)(4)(B).)”, (United States Government website).
Again, Let this be the voice of a victim, Ms. Pidanick stating and proving fraud upon the
court by beaufort county sheriffs department, family court, lawyers, clerk, prosecutors, SLED
and so on, by investigative reporters for the Daily Counter and FITSNEWS.

12

The Supreme Court Of The United States, Case No. 19-1462

REASONING FOR GRANTING THE WRIT
A. Did the court Error when reviewing and ruling on appellant’s, Ms.
Pidanick’s Case, wrongfully omitting aspects of the written statement in
question by Ms. Pidanick to falsely create a “true threat.” Moving words
together creating a false narrative the court can easily blame on the plaintiff to
hide the court’s unlawful actions?
WHEN THE DOORS OF THE U.S. COURTS are willfully, maliciously, and improperly
closed to non-influential, self - represented persons, like the victim, mother, Ms. Pidanick,
justice must be brought by this court.The fact of denial of Equal protection and due process
aimed at mother, victim, plaintiff. Sent by Judge Peter Fuge to silence Ms. Pidanick from truthful
statements about his crimes. This is simply because the fraudsters want to protect their kind via
abuse of power, does this court’s refusal to intervene send a disturbing message that the “Las
Vegas” kind massacre remains the only avenue for attention/justice? Rioting becomes the only
way for justice to be taken seriously?
A investigative reporter for the Daily Counter and a investigative reporter for
FITSNEWS confirm anything but a fair justice system in our courts and intimidation of threats
of jail, and hurting her daughter for the Plaintiff, Jacqueline Pidanick for truth telling (her story
was proven as fact). Since this case started, there are now many outlets reporting what transpires
in family court and how the victim of the court reaches out for help and report crimes of the
court only to be intimidated by police, sheriffs department and/or in this case the State Police
department, SLED, judges and lawyers. Ms. Pidanick is a whistleblower and the system is
merely retaliating. When, I, Ms. Pidanick reported crimes by the court, no oversight followed
proper procedures, instead Ms. Pidanick reached out over social media with the uncontested truth

13

The Supreme Court Of The United States, Case No. 19-1462

occurring. No oversight was stopping the crimes of the court. Judge Fuge sent SLED after Ms.
Pidanick as his own private police force, Judge Fuge was upset that Ms. Pidanick filed a petition
with hundreds upon hundreds of signatures with support for the plaintiff. Since Mr. Fuge’s action
were illegal due to his abuse of power, SLED had a obligation to report him and investigative
him but refused. Plus, many citizens of Beaufort county have reported Mr. Fuge’s abuse of
power and not one report was taken on by SLED. Instead, SLED stated the right to speak was not
a right of mine, intimidating a victim into silence like a rapist would do to a rape victim. This is a
very illegal and unprotected action by SLED and Beaufort County. But will the court be allowed
to continue to hide the abuse towards its citizens just like the case gripping the nation of where
the white police killed a black man and if not for the marching in the streets and rioting of our
great nation, these officers would never had been brought to justice. On average when a
complaint is given on a officer nothing happens. When a complaint is given on a Judge, nothing
happens. Now the citizens are rioting. Why not allow justice to Ms. Pidanick finally... she is a
minority as a Italian, and feels the pain of these minorities being killed in the street.
March 11th 2020, A Family Court Whistleblower Complaint was filed to the house
oversight committee, reported by Patrick Howley. Ms. Pidanick has reported to the FBI that Mr.
Fuge and the court has changed her transcripts in all three hearings against convicted abuser
Chris Maddaloni therefore making appealing impossible. Since she reported the truth, Mr. Fuge
has made the victim’s, Ms. Pidanick’s life hard. In this article by Mr. Howley, this whistleblower
states how judges in the family court are repeatedly changing, fabricating or destroying
transcripts and evidence. In a article by the Daily Counter written by Nicolas Knight, all of the
claims Ms. Pidanick made to the district federal court that the district federal court wrongfully
threw out were proven and verified as true by journalists.

14

The Supreme Court Of The United States, Case No. 19-1462

In the Daily Counter article, Ms. Pidanick’s evidence explaining her side and clearing her
name as the problem in the courts was wrongfully destroyed by Beaufort Sheriffs department to
which Beaufort Sheriffs Department admits to, Judge Fuge admits to over stepping by trying to
find dirt about Ms. Pidanick in past proceedings, along with the transcripts being tampered with,
clerks did not allow Ms. Pidanick to file, transcripts were also never given as requested in one
hearing, the list goes on and on. Ms. Pidanick holds a 1500 page affidavit of all laws broken by
the court against Ms. Pidanick. In the article by FITSNEWS, JakkiePersistent, FITSNEWS
admits the South Carolina court system is “notoriously inconsistent in its administration of
impartial justice”.
The Bombshell Whistleblower complaint provides documentation of this pattern of
fabrication by the court system. This documentation is describe in the same fashion as Ms.
Pidanick describes the cases against her, the transcripts are written to show as if due process
occurred and that the plaintiff, Ms. Pidanick either had no evidence or no complaint to bring
forward when truly she held all the evidence, but was given no due process and indeed had a
case that shows Mr. Maddaloni was in fact in contempt, Mr. Horton (lawyer for convicted
criminalMr. maddaloni) lied to the court and created claims falsely to intimidate Ms. Pidanick
and Mr. Fuge acted outside the law to “seal the deal” against Ms. Pidanick, the good parent. A
example of this would be in the last trial from January 2017, Judge Guyton was mad at Ms.
Pidanick for writing a petition against Judge Fuge for his unlawful actions and Mr. Horton, the
lawyer for Chris Maddaloni, attempted to bully the Victim Ms. Pidanick by weaponizing the
court against her if she continues to post and share her truthful petition (a protected right the
court will not allow Ms. Pidanick). Since, I, Ms. Pidanick refused to remove petitions and SLED
scaring Ms. Pidanick didn’t work to get Ms. Pidanick to take down the truth, Judge Guyton held

15

The Supreme Court Of The United States, Case No. 19-1462

Ms. Pidanick in Contempt for “hiding behind her first amendment right.” This of course is a right
allowed to her and a state judge could not even rule on such a right. He did and Judge Guyton
changed the transcript to read anything but the actual verdict given at the time of the trial. Ms.
Pidanick requested audio but was denied even though the court admits recording and has it (In a
Beaufort country job post the court admits recording in their family courts). Ms. Pidanick holds
evidence of all this. In Mr. Howley’s article, this whistleblower states he holds evidence of the
same actions experienced in his work while observing these family court judges. Obviously this
in fact is a scheme and the district court was wrong to attempt to hide Ms. Pidanick’s claim by
splitting up the her original complaint into two small claims so the court could hide the true issue
and throw Ms. Pidanick’s claims out, watering down her truthful conspiracy claim and RICO
claim, so Ms. Pidanick could not succeed. This is abuse of power, this is conspiracy, this is
RICO, this is a willful illegal delay in Justice by the court. Again, the people of this nation are
rioting due to the authorities hiding their abuse towards the citizens, does my life not matter? The
court is stating the life of Ms. Pidanick does not matter.
In the district court, to cover for the state trial court judges, judge Baker and party split
Ms. Pidanick’s complaint up falsely to water down her conspiracy complaint. This is common
practice noted by family court victims and the daily counter investigators. These new
whistleblower complaints now coming forward comes amid national scrutiny on family
courts...corrupt practices by the system. It’s time to stop hiding what everyone knows. With
both articles stating Ms. Pidanick was wronged and these illegal actions against Ms. Pidanick
were now proven, her complaint now is verifiable Fraud on the Court and conspiracy along with
intent to harm her minor baby, Ms. Pidanick’s daughter by SLED, Mr. Horton, Chris Maddaloni,
Beaufort Sheriffs Department, Judge Peter Fuge and party with failure to act to protect.

16

The Supreme Court Of The United States, Case No. 19-1462

Ms. Pidanick case must be corrected and the integrity of the court upheld. Amidst a
movement in our streets today screaming equal justice and rioting over abuse by the police, it’s
time to listen and create change allowing justice. To allow such judicial abuse and abuse of
process is against everything the United States built its foundation on, this victim has been
abused over and over by a partner is horrific enough but to allow the court to continue to abuse
Ms. Pidanick while the BLM (Black life’s matter) are Marching in the streets as a direct result of
police misconduct is disgraceful. The abuse of process continued on/from lawyer Marshal
Horton and the Horton Goodman law firm must be punished for bullying Ms. Pidanick to silence
her speech. The continuing cover ups from South Carolina’s own police division is even worse,
leaving our citizens helpless and knowingly doing so. Courts, lawyers, and police can not
intimidate a victim and use their power to wrongfully send letters to scare the victim, Ms.
Pidanick from telling the truth, visit or hold a hearing to create intimidation, abusing their power
or harassing to quiet and remove a citizen’s first amendment right. This abuse of power through
emails falsely demanding removal of true speech removes first amendment rights from the
plaintiff, Ms.Pidanick by Mr. Horton and enforced by SLED . Using the court and other means to
intimidate as Ms. Pidanick’s minor daughter was being put with a abuser to scare a Domestic
violence survivor from speaking out, is a whole new level of low. The minor child, a little girl
scared left to be beat with no one to help was the fault of the courts. This little girl Screaming in
the night at weeks old because the court wanted a buck. The people are rioting over such abuse
by courts and police today, June 2020 because the court failed the people. Further Abuse to
victims in the court has been reported by everyone, YES EVERYONE! countless complaints
Hidden, this needs to stop. When the inferior courts refuse to perform its duty, the only
remaining course of action is a writ. In fact, here the assigned individuals of the inferior courts

17

The Supreme Court Of The United States, Case No. 19-1462

are the very individuals committing the fraud on the court. “The writs thus afford an expeditious
and effective means of confining the inferior court to a lawful exercise of its prescribed
jurisdiction, or ofcompelling it to exercise its authority when it is its duty to do so

Ex parte

Republic of Peru 318 U.S. 578, 583, (1943). Writ, “where it was necessary to confine a lower
court to the terms of an appellate tribunal’s mandate, U.S. v. U.S. Dist. Court, 334 U.S 258
(1948)”, Will v. United States, 389 U.S. 90, 95-96(1967).
MAIN FOCUS
The plaintiff Truthfully states, the Honorable Court (Judge Norton, Judge Baker) are
attempting to cover up the claim of harassment, abuse of power, attempt to silence by SLED
officer Mr. LaRosa and a Beaufort County Sheriff deputy, who was supposed to protect the
victim but by hiding evidence and not analyzing the whole event only pieces of the event to
construct the court’s own agenda falsely called Ms. Pidanick a “true threat” to get rid of her is
disturbing. This is a lack of due process, abuse of power and fraud upon the court violations
already proven by reporters. The court has been allowing individuals to commit fraud by
suppressing the truth of the innocent. As federal district court did not wait for the plaintiffs
evidence to pass summary judgement or by the federal district court failing the people by
analyzing a piece of the harassment towards Ms. Pidanick instead of all the evidence to aid a
cover up. Fraud consist of anything calculated to deceive as seen here by SLED, Peter Fuge,
Marshal Horton and the Court system, whether by single act or combination, or by suppression
of truth, or suggestion of what is false, whether it be by direct falsehood or by innuendo, by
speech or silence, word-of-mouth, or look or gesture, Frowen v Blank,493 Pa. 137,425
A.2d,413(1981). It has been said that fraud may induce a person to assist to something which he
would not otherwise have done (as in silence Ms. Pidanick), or it may induce him to believe that

18

The Supreme Court Of The United States, Case No. 19-1462

the act which he does is something other than it actually is Greenwood v Kadodoich , 239
Pa.Super,372,357 A.2d 604(1976). To be actionable, the misrepresentation need not be in the
form of a positive assertion (As SLED stated to the plaintiff, she could not speak because her
Federal Rights did not matter. This is recorded and attached by way of a CD, transcripts hid the
truth). Shane v Hoffman ,227 Pa.Super. 176,324 A2.d 532(1974). It is any artifice by which a
person is deceived to his disadvantage McClellan's Estate,365 Pa 401,75 A.2d 595(1950). It may
be false or misleading allegations or by concealment of what which should have been disclosed,
which deceives or is intended to deceive another to act upon it to his detriment. Baker v
Rangos,229 Pa.Super,333,324 A.2d 498(1974). It is well settled that Fraud is provided when it is
shown that the false representation was made knowingly as it was in Ms. Pidanick’s Case,
proven by reporters or in conscious ignorance of the truth, or recklessly without caring whether it
to be true or false Warren Balderston Co. v Integrity Trust Co..,314 Pa.58.170 A.282(1934). This
is seen by creating a false claim against Ms. Pidanick.lt has also been established that the
deliberate non-disclosure of material fact amounts to a culpable misrepresentation no less than
does an intentional affirmation of material falsely. Neuman v Corn Exchange National Bank &
Trust Co.,356 Pa.442,450-52,51 A.2d 759,764(1947).
Yet a misrepresentation incidentally made is also actionable if it relates to a matter material
to the transaction involved; while if the misrepresentation is made knowingly or involves a nonprivileged failure to disclose, materiality is not a requisite to the action. Shane v Hoffmann,227
Pa.Super. 176.324 A.2d 532(1974).A misrepresentation is material when it is of such a character
that if it had been made, the transaction would not have been entered into, Greenwood,239
Pa.Super.at 378,357 A.2d at 607. Once deceived need not proven that fraudulent
misrepresentation was the sole inducement to the investment of money, a material inducement is

19

The Supreme Court Of The United States, Case No. 19-1462

sufficient. Neuman 356 Pa.at 454,51 A.2d at 765. The court is seen here trying to deceived a
victim, the plaintiff, Ms. Pidanick and falsely producing orders against her for speaking the truth
and the court attempted cover up, cost the plaintiff much.
B. Did the Court Error on splitting complaint to purposely weaken Ms. Pidanick’s
case when RACKETEERING involves two or more individuals. Did the court
wrongly split up Ms. Pidanick’s case into two cases to weaken her case?
Plaintiff, Jacqueline Pidanick is a mother of two little ones, Domestic violence
survivor by way of convicted Christopher Maddaloni and is a #metoo victim, founder of the
nation #Beloud movement to create oversight in the court system, would like to bring into focus
all aspects of mine, Ms. Pidanick’s first filed complaint (falsely split apart by the district court).
United States Code law allows an individual who believes that his or her constitutional rights
have been violated to bring a civil action against the government to recover the damages
sustained as a result of that violation. Specifically, 42 USC §1983 “provides a cause of action for
the deprivation of any rights, privileges, or immunities secured by the Constitution and laws by
any person acting under color of any statute, ordinance, regulation, custom, or usage, of any
State or Territory.” Gomez v Toledo, 446 US 635, 638 (1980)(intemal quotations omitted).
I, Jacqueline Pidanick respectfully also request a review of a Order placed on March 15th
2019 by the Honorable Judge Norton. Ms. Pidanick DID REPLY IN TIME ALLOWED, Judge
Norton attempts to state other wise to try to create further fraud upon The court. With all due
respect after I, the plaintiff read order, I was over come by sadness. Sadness that a attempt to
cover up such unconstitutional acts of those with power by falsely stating a lack of validation
with the use of only segments of the recorded attack that occurred against ME, Ms. Pidanick by
SLED. This action rides within the lines of FRAUD UPON THE COURT. Fraud upon the court

20

The Supreme Court Of The United States, Case No. 19-1462

is happening everyday because every judge and lawyer is aware and understands the victimizing
game played to those of the innocent nature by legal authority. Instead of righting their wrongs
these bad officials rather hide abuse for the sake of gaining more money and delaying justice, if
any is served at all. I, the plaintiff would think a statement such as a change of career towards
law by the plaintiff to stop the over running abuse would call to action the court to begin to instill
/

justice once again, instead rioting allows justice, this is sad and pathetic by the court to allow
rioting to serve as a means of bringing justice because the court refused to obtain proper justice
in the first place.
The Plaintiff took on a legal education to gain the respect of our schools and court to
fight against the corruption. A guilty person would not do such a thing. What human with
internal law wants to live in a dark world they are knowingly creating, unless the corruption has
gotten so bad it can’t be stopped. The Federal Bureau of Investigations (FBI) said “if we fought
court corruption the whole judicial system would collapse” admitting corruption. Instead living
in a world of darkness and suffering of little ones with cries in the night is better? I ask the
Honorable Court, start here and make that difference, let there be love, happiness and humanity.
You, the court can stop the riots in the street and the daily Marches for equal justice to finally
result. I remind the court due to the lawlessness of the police and court system, courts are being
burned down and police attacked in our streets. Be a hero and provide justice to Ms. Pidanick to
unite our country for this outcome has no price and no dollar sign to go against. Remember
money does not buy you the importance in life we seek. You can not buy love nor loyalty nor
fulfillment, only cover it with a money bandage in hopes the void never grows to large. With this
in mind I, the plaintiff, mother of two on the grounds of the constitution ask the court to allow

21

The Supreme Court Of The United States, Case No. 19-1462

these abusers of the law to be brought to justice and removed. The constitution does not allow
such injustice to which I, the plaintiff fully believes you already know.
The plaintiff states loudly, I met no statute nor law to harm on any level because I, the
plaintiff wrote on my post in question, “I would never hurt anyone.” Peter Fuge stated falsely I
was going to harm him without holding proof and SLED thought I would fall for their sad excuse
to stop me from posting the truth. SLED harassed, abused authority the day they came to my
home without even knowing what law I violated. That’s right, SLED couldn’t even tell me, Ms.
Pidanick what law I violated but they knew my federal rights were not allowed to me. SLED
could not tell me what I actually did wrong because Judge Fuge used them to scare me, to hold
me in a false violation. If I was held in a wrongful act wouldn’t SLED have known what the law
I broke? This is recorded by me and only me, the plaintiff, please listen to recording which is
different from Ms. Jackson’s transcript. Because Ms. Pidanick never violated a law the
defendants admits to the Plaintiff, Ms. Pidanick, that I was in “no real” violation but I should
refrain from speaking the truth of the corrupt actions of a judge, what? Isn’t no one above the
law? Unless you’re a cop or a judge right ? Therefore, no intent to harm, no probable cause by
the plaintiff means no investigation can take place and one should of never happened. Imagine if
the plaintiff was scared off and her daughter was dead today by SLED’s actions. Shameful. If
SLED falsely investigated, that’s harassment. The one statement that releases any intent to harm
by Ms. Pidanick and completely destroyed the defense’s case to investigate is Ms Pidanick again
wrote in the post in question “I would never hurt anyone.” Which makes every action by SLED
Fraud, abuse of power, etc.
The issue started when Judge Fuge of South Carolina was falsely carrying out court
hearings. This is a fact due to the thousands of victims now coming forward. The hundreds of

22

The Supreme Court Of The United States, Case No. 19-1462

complaints SLED hid and the articles written on Ms. Pidanick’s behalf proving she was right and
fraud existed. Ms. Pidanick shared a article by yahoo stating judges are dying from throwing
court cases. I stated above the article that “ I would never hurt anyone”. Therefore removing any
probable cause which means SLED could not investigate me. Instead, SLED harassed Ms.
Pidanick attempting to tell her the constitution does not apply to her and she basically should be
quiet. The Beaufort deputy violated the failure to protect law for not stepping in and asking
SLED to leave since SLED had no probable cause. SLED stated Ms. Pidanick’s federal rights
meant nothing, the deputy just sat there never intervened. That’s stepping outside the law and is
against the law. SLED was supposed to help the victim, Ms. Pidanick and yet again SLED is in
the hot seat for failure to follow law.
The honorable judge fails to mention in his ruling that the words he used were in separate
sentences of the post in question. Judge Norton points out two words I, the plaintiff wrote from a
article in different sentences and put them together to create a meaning. This is a clear violation
of Ms. Pidanick’s first Amendment and due process rights. Due process does not allow the judge
to move words around to create a meaning for the agenda of the courts. Therefore, since the
article came from a news outlet my post was seen as true, releasing the intent to intimidate
anyone by the plaintiff. SLED can not investigate therefore they were abusing power. True
statements can not be attacked under the law (See Constitution Amendment One). It seems Judge
Fuge was only having a fit due to Ms. Pidanick exposing the truth and SLED was Judge Fuge’s
“hitman.” Judge Fuge falsely claimed that Ms. Pidanick was a threat, only to reporting the truth
of the crimes Judge Fuge committed. Even Mr Larose stated the plaintiff wasn’t a threat before
he harassed Ms. Pidanick. Does that make sense, of course not, the whole “true threat” false
narrative is obviously incorrect and a failed attempt by the lower courts to hid the fact Judge

23

The Supreme Court Of The United States, Case No. 19-1462

Fuge went outside the color of the law to send SLED after me to silence me from stating the
truth. Ms. Pidanick not being a threat was established before SLED officer LaRosa even came to
her door. As the Constitution recognizes “Media” as a “Right” protected by the First Amendment
to the U.S. Constitution therefore not subject to Contractual Obligation/s outside of this
Declaration. Seconded the Plaintiff, Jacqueline Pidanick wrote in her post that “I would never
hurt anyone.” This Statement ends intent to harm and intent to intimidate. Last, no judge was
named in the post which means no lawful action was followed by Mr. LaRosa. Intent to
intimidate and or intent to harm must name a victim. Therefore no probable cause leads to no
legal investigation making the visit to Ms. Pidanick’s home Harassment for they would not leave
until I spoke with them. It is against the law to quiet someone just because Judge Peter Fuge does
not want the truth out. What really hurt South Carolina and Law enforcements ethical standing
was SLED who swore to uphold the law stated “the constitution does not mean anything, we
have laws here in South Carolina” to the plaintiff and metoo victim. How heart breaking and
illegal. Clearly a official of such caliper as Mr. Larosa would of known that was not true. This
statement releases SLED from immunity because the law sworn to protect was not upheld. Mr.
LaRosa stated the constitution doesn’t matter to Ms. Pidanick in hopes the plaintiff would stop
posting and telling the truth. Does that not scare the population of South Carolina?
RACKETEERING/ CONSPIRACY BY THE ACTORS OF THE COURT
The full complaint held, False Letters Sent from Mr. Horton’s place of work sent to
intimidate with out use of law, is a Violations of 18 U.S.C 1030 18 U.S.C. 1030 (4) states
intentionally access to a computer without authorization OR EXCEEDS AUTHORIZED
ACCESS to conduct intended fraud, (7) with intent to extort from any person any money or thing
of value as in my, the plaintiffs daughter and false litigation. Shall be punished by fine and

24

The Supreme Court Of The United States, Case No. 19-1462

twenty years in prison. The mental stress I, the plaintiff have suffered from lack of due process
and the trial court allowing a women a survivor of Domestic violence (#metoo victim, #beloud)
to be further beat up in a court room by three man was disgusting. To clarifying a number of the
provisions in the original section 1030, the CFAA also criminalized additional computer-related
acts. For example, Congress added a provision to penalize the theft and fraud of property via
computer that occurs as a part of a scheme to defraud. Mr. Horton, Mr. Fuge, and Mr. Maddaloni
attempted to defraud the plaintiff with fake actions. Stating my petition is illegal(a first
amendment protection), A petition is not illegal yet Mr. Horton through demanding letters sent to
Ms. Pidanick threatens trials and Mr. Horton is going to “get me” for speaking the truth. I remind
the court that right now the citizens are rioting in the streets over the lack of lives mattering to
the police and court. So these citizens burned down court houses and attacked police. This great
nation is pushing for reform and this is why. Mr. Horton abused his power and how sick to abuse
his power against a mother of two domestic violence survivors trying to survive. Mr. Horton
threatening me, Ms. Pidanick to take down her petition then the court creates fraud upon the
court which has been proven (Daily Counter has proven Ms. Pidanick’s Story that has been
covered up by the court system). The court states Ms. Pidanick is hiding behind her first
amendment right but something else is written in the altered transcript (This alteration is a
common practice the family court whistleblower article states). This is also proven by many of
the articles Ms. Pidanick mentioned previously.
Since Ms. Pidanick’s case was proven to be fraud why is the court still hiding the illegal
actions of the court? Since all bad actors involved attempted together to silence the victim, Ms.
Pidanick like they do to many. Congress also added a provision to penalize those who
intentionally alter, damage, or destroy data belonging to others (Judge Fuge forced a altered

25

The Supreme Court Of The United States, Case No. 19-1462

transcript, Judge Norton falsely stated a claim that was abuse of authority, and so on). My, Ms.
Pidanick’s evidence was destroyed by Mr. Horton, Mr. Fuge, SLED, Beaufort Sheriff s Depart.
(They Admitted) and Mr. Maddaloni and also the Plaintiffs evidence was altered. This latter
provision was designed to cover such activities as the distribution of malicious code and denial
of service attacks.
In the State of South Carolina one can not find relief since the commissions of judicial
conduct and disciplinary action hold a F for rating found on the state page. This F stands for not
functioning means the state of South Carolina for many years has had no oversight. Add on to
the problem of judicial misconduct, victims can not find a lawyer due to the fact it is career
suicide to go against a judge. If a lawyer takes a case with merit that is against a judge, police, or
lawyers, the judge involved never rules for the lawyer again for aiding the victim, leading to a
loss of career for the lawyer. This is again career suicide. Ms. Pidanick the victim, plaintiff has
many victims willing to come forward if the court needs such. Ms Pidanick also has a list of
lawyers that state I, the plaintiff has a claim but can not take on the case due to career suicide.
This aided to my mental stress, I could not find help to protect my daughter from a lawyer
abusing the process and over stepping, along with a mentally unstable ex boyfriend (diagnosed
with Narcissistic Personality Disorder). Please realize how fearful I am , everyday I look over
my shoulder, everyday I worry about our lives. This has been my thoughts for six long years as a
victim. The plaintiffs original case must be reinstated at this point bringing both half s of mine,
the plaintiffs complaint together to show conspiracy and Racketeering involved in her case
proven by the daily counter newspaper and Fitsnews. It is time people are rioting
Cyberstalking by Mr. Horton

26

The Supreme Court Of The United States, Case No. 19-1462

The issue was that Mr. Maddaloni was convicted of CDV (Criminal Domestic Violence)
again arrested for the sixth time, has continued to harass me, the plaintiff, his victim . I placed a
petition on Facebook which was my sworn statement and written by a reporter. First, the petition
is my first amendment right and second, Mr. Horton cyberstalked me on Facebook to obtain
petition is a federal offense, since he is blocked from seeing my page, U.S.C 47 and Rule 3.3
Candor laws. Mr. Horton openly laughed and admitted taking money to commit this crime. This
law state you cannot stalk someone over the internet and use it to harass the victim? A petition
that is proven to be true is not a crime (daily counter article proved the petition has merit). A
person convicted of CVD has the personality disorder that creates the need for control and to win
(stated studies on CDV) This attempt to control the victim by fear though cyberstalking needs to
be addressed with a punishment (of Mr. Horton). Next, Facebook was just affirmed by the
supreme court in 2015. Supreme Court, Elonis v. U.S, 13-983. (Sp.Ct. 2015). Which means
Mr. Horton is-in direct violation of cyberstalking. Facebook/social media is protected speech.
Mr. Guyton, Ms. Banis, Mr. Horton and Mr. Fuge sadly refuse to follow the laws of the higher
court. Something must be done since they will only continue to spin the truth to fit their
narrative.
Bias Behavior from the Court Staff
Ex-PARTY CONVERSATION :The bailiff of the Beaufort County Family Court would
repeatedly meet in private with Mr. Maddaloni’s Lawyers and whisper about what “I was going
to receive”. The plaintiff, Ms. Pidanick caught the bailiff and when confronting the Bailiff, He
refused to commit and stated the discussion was nothing. At recess times, the bailiff would stand
with Regina Banis, Mr. Maddaloni, Mr. Horton and other lawyers for Mr. Horton and Laughed,
carrying on as I, Ms. Pidanick sat alone the victim #metoo of CDV, #beloud founder. Please tell

27

The Supreme Court Of The United States, Case No. 19-1462

me why this great nation is wondering why people are rioting against police and do not believe
injustice, because there isn’t any, justice doesn’t exist, the powerless such as myself are ganged
upon, sad truly sad.
The actions of the court remind me, Ms. Pidanick of the case concerning DUPONT(Teac/i v.
E. I. du Pont de Nemours & Co., No. Ol-C-698 (WoodCounty W. Va. Cir. Ct.) ("Leach Case")
and the poisoning of the drinking water. The case ultimately found justice but took life’s and 20
years with a lawyer working on nothing but this case to the end. Yes corruption was so bad that 8
hours a day for 20 years this lawyer worked because no one would do the right thing. There
were officials hiding DuPont’s action for money, paying off expert witnesses with donations,
hiring many lawyers, false internal investigations to clear themselves of wrongdoing, DuPont set
whistleblowers homes on fire, false letters sent to the people covering the actions and finally a
huge study to show each employee did in fact become over loaded with the chemical c-8, which
causes cancer that DuPont knew was harmful to their workers ... still nothing was done, can you
believe that ? Because the money was so good, just like the money that flows through the family
court. Until a lawyer refused to let people suffer, he was harassed, almost fired and had strokes
over the issue at hand. Comparing the DuPont case to court corruption, my whole case at point,
the corruption and lengths the court goes to cover its own illegal acts are completely believable
and has now been found as true. The corruption allowed to carry on and covered by the court
were: Mr. Horton’s fake letters, SLED clears themselves of any wrongfully action, people die,
children die due to court abuse hid from the courts to make a buck, intimidation for speaking of
crimes, removal of documents from files, police sent to rough Ms. Pidanick up ,the comparison
of corrupt tactics in the DuPont case concerning family court corruption is astronomical similar
and scary. DuPont even states if they are gone after and complete financial collapse would result

28

The Supreme Court OfThe United States, Case No. 19-1462

of the local government. So, DuPont assumed they were home free. In my case, FBI is afraid and
states we would have chaos if we go after family court, admitting their wrongdoing and allowing
a court to “check itself’ instead of removing the criminals. The honor court is faced with pivotal
decision of continuing to hide the acts of the officers and the court or to finally do something
about it, the lawyer was faced in the DuPont case with the same decision. DuPont admits 99% of
all humans now have c-8 in their blood causing cancer because no one did the right thing. That’s
you too your honor, you have c-8 in your blood. So, let’s fix family court abuse and all the issues
it creates by doing something about it.
C. Should a deputy and SLED officer have Immunity and be free to scare and
intimidate the public without recourse, ex-specially when dealing with a victim
reporting crimes and practicing her first amendment right?

I remind the honorable court of a quote from William Barr, “ You can allow power but
you need to control it, ” honorable court while rioters are in our streets will you standfor
the people the police abused?
In response to the murder of George Floyd, who was murdered by a police officer abusing his
power, the past days have seen a surge of police violence, with unprovoked attacks on peaceful
demonstrators, journalists, and even people just standing in their own homes. Incredibly, even
though there’s clear video evidence for many of these incidents, holding police accountable for
their actions is impossible but shouldn’t be. In the plaintiffs case, Ms. Pidanick recorded
officers, Mr. LaRosa and a Beaufort County Deputy harassing her. These officers admitted being
sent by Judge Fuge after Ms. Pidanick reporter his misconduct and posted a petition for Judge
Fuge’s removal that contained over 1000 signatures (attached are many more of Mr. Fuge’s

29

The Supreme Court Of The United States, Case No. 19-1462

victims ready to come forward). Very illegal to silence a victim from reporting crimes. Still the
victim of domestic violence, registered #me too victim and #beloud founder was harassed instead
of the Judge that was proven to have been breaking the law being taken to jail. This is abuse of
power, police misconduct and down right wrong.
A legal rule known as “qualified immunity” often shields police officers and other
government officials from being sued by victims and their families, even if the officers violated
their civil rights. And since prosecutors are loath to file criminal charges against government
agents, suing rogue officers for damages in civil court is often the only recourse available to
victims of government abuse.
Congressman Justin Amash revealed that he will introduce the End Qualified Immunity
Act, which would eliminate a “permanent procedural roadblock for plaintiffs” that thwarts them
from “obtaining damages for having their rights violated.” The brutal killing of George Floyd by
Minneapolis police is merely the latest in a long line of incidents of egregious police
misconduct,” Congressman Amash wrote. “This pattern continues because police are legally,
politically, and culturally insulated from consequences for violating the rights of the people
whom they have sworn to serve. That must change so that these incidents of brutality stop
happening.” The Plaintiff hopes for the honorable court to bring peace finally to the victim and
create change today by holding the officers involved with attempting to silence Ms. Pidanick
guilty by coming into her home, cornering her against her car, stating I, Ms. Pidanick can not
state truths of laws broken by a judge, trying to blame Ms. Pidanick and falsely rewording her
post to create a “true threat” and hid justice, stating her rights didn’t matter then finally stating
state laws Trump federal rights. SLED Sent after Ms. Pidanick by Judge Fuge, Ms. Jackson
(Lawyer for SLED) took paperwork to hid SLED’s scheme out of the plaintiffs copy of the

30

The Supreme Court Of The United States, Case No. 19-1462

freedom of information act file, the fraud goes on and on. This is fraud on the court, this is abuse
of process, this is obstruction of justice, conspiracy and Racketeering.
Ever since Congress passed the Civil Rights Act in 1871, individuals have been able to
sue state and local officers for infringing on their constitutional rights. But in 1982, the U.S.
Supreme Court ruled that government officials were entitled to qualified immunity from civilrights lawsuits, if their actions didn’t violate “clearly established” rights. SLED’s actions clearly
violate the plaintiffs First amendment right because SLED clearly states her federal rights do not
matter.
In other words, unless a court had previously ruled that an officer’s actions were
unconstitutional, police would still be immune from a lawsuit, even if they violated someone’s
rights. This “clearly established” requirement was crafted whole-cloth by the Supreme Court and
appears nowhere in the actual text of the Civil Rights Act or in the federal law codified today,
Section 1983. Still, Ms. Pidanick has been falsely blocked and her complaint dismantled to allow
the court a better chance to change the narrative of her case and water down her course of action.
The victim, plaintiff has not backed down nor gone away. I, the plaintiff stands for the people of
this great nation and fights against police misconduct occurring, justice must be given to the
great people of our land.
Unsurprisingly this immunity, has helped foster a culture of impunity for law
enforcement, with often absurd results. Just last year, qualified immunity was granted to Fresno
officers accused of stealing more than $225,000 during a search, Idaho police who bombarded an
innocent woman’s home with tear gas grenades, and a Georgia officer who tried to kill a family’s
dog, but accidentally shot a 10-year-old boy instead, all on the grounds that the rights involved

31

The Supreme Court Of The United States, Case No. 19-1462

weren’t “clearly established.” This is grossly negligent of the judicial process to allow such
abuse. “Grossly Negligent”
“This rule has sharply narrowed the situations in which police can be held liable-

:ven

for truly heinous rights violations—and it creates a disincentive to bringing cases in the first
place,” Congressman Amash noted in his letter. “If a plaintiff knows there is no prior case that is
identical to theirs, they may decline to even file a lawsuit because they are very unlikely to win.”
Ending qualified immunity, however, would “restore Americans’ ability to obtain relief when
police officers violate their constitutionally secured rights,” he added. At the same time, it would
also provide a powerful incentive for municipalities (who are generally responsible for paying
out judgements and settlements) to restructure their law enforcement agencies and adopt policies
and practices that curtail abuses of power.
Elimination of qualified immunity would disincentivize people from abusing their
authority as police officers. If being held accountable for violating the Constitution would
dissuade someone from becoming a police officer, then they shouldn’t become a police officer.
Fortunately, the injustice of qualified immunity is becoming clearly established in the court of
public opinion. Earlier this year, the Institute for Justice formed the Project on Immunity and
Accountability to challenge qualified immunity and other legal doctrines that make it “nearly
impossible for ordinary Americans to hold the government accountable in court.”
The New York Times editorial board called on the Supreme Court to “ratchet back
qualified immunity,” asserting that the doctrine “lets cops get away with murder.” On Monday of
the week of the riots, more than 400 civil rights organizations, including the Leadership
Conference, the ACLU, Amnesty International USA, and the NAACP, sent a letter to

32

The Supreme Court Of The United States, Case No. 19-1462

congressional leadership urging that they enact a package of “meaningful police reform
legislation” that includes “an end to qualified immunity doctrine.”
“Qualified immunity was created by the Supreme Court in contravention of the text of the
statute and the intent of Congress,” Congressman Amash wrote. “It is time for us to correct their
mistake.” The Plaintiff, Ms. Pidanick ask the honorable court to please stand for the victim these
officers attempted to silence from using her first amendment right and stating her federal rights
didn’t matter as she struggled to keep her baby girl alive and protect her babies from abuser,
Chris Maddaloni. Terrible absolutely terrible of these officers.
Since Fraud upon the Court is now established (by way of investigative journalism)
Relief request is to combine the original complaint together and rehear this case with
oversight since the bad behavior of the lower federal courts are bias, this is evident. This bias result
of the lower district courts violates the plaintiffs constitutional right to a fair trial with a unbiased
judge and blocks the victims access to the court. A state judge is a state judicial officer, paid by
the State to act impartially and lawfully. A federal judge is a federal judicial officer, paid by the
federal government to act impartially and lawfully. State and federal attorneys fall into the same
general category and must meet the same requirements. A judge is not the court. People v. Zajic,
88 Ill.App.3d 477, 410 N.E.2d 626 (1980)
Whenever any officer of the court commits fraud during a proceeding in the court, he/she is
engaged in "fraud upon the court."In Bulloch v. United States, 763 F.2d 1115, 1121 (10th Cir.
1985), the court stated "Fraud upon the court is fraud which is directed to the judicial machinery
itself and is not fraud between the parties or fraudulent documents, false statements or perjury....
It is where the court or a member is corrupted or influenced or influence is attempted or where the

33

The Supreme Court Of The United States, Case No. 19-1462

judge has not performed his judicial function — thus where the impartial functions of the court
have been directly corrupted."
"Fraud upon the court" has been defined by the 7th Circuit Court of Appeals to "embrace that
species of fraud which does, or attempts to, defile the court itself, or is a fraud perpetrated by
officers of the court so that the judicial machinery can not perform in the usual manner its impartial
task of adjudging cases that are presented for adjudication." Kenner v. C.I.R., 387 F.3d 689 (1968);
It is also clear and well-settled Illinois law that any attempt to commit "fraud upon the court"
vitiates the entire proceeding. The People of the State of Illinois v. Fred E. Sterling, 357 Ill. 354;
192 N.E. 229 (1934) ("The maxim that fraud vitiates every transaction into which it enters applies
to judgments as well as to contracts and other transactions."); Allen F. Moore v. Stanley F. Sievers,
336 Ill. 316; 168 N.E. 259 (1929) ("The maxim that fraud vitiates every transaction into which it
enters ...").
Chief Justice John Marshall acknowledged that a court may grant relief from judgment where
a new matter “clearly proves it to be against conscience to execute a judgment, and of which the
injured party could not have availed himself before judgment. Marine Ins. Co. of Alexandria v.
Hodgson, 11 U.S. (7 Cranch) 332, 336 (1813). He further emphasized that an Article III court can
grant relief where the “equity of the applicant [is] free from doubt,” and where a judgment “would
be against conscience for the person who has obtained it to avail himself.” Id. at 337 (emphasis
supplied). Ms. Pidanick, Plaintiff again states the following true facts enough to support fraud and
creating Mr. Hortons, Judge Fuge, SLED, Beaufort Sheriffs Dept, and Mr. Maddaloni actions as
fraudulent. Again review the facts, I’m sorry to keep repeating but after being so let down by the
abuse of the lower courts I feel this needs to be said repeatedly.
1. Mr. Horton feels Ms. Pidanick's 1st and 14th Amendment rights are not of concern to

34

The Supreme Court Of The United States, Case No. 19-1462

Mr. Horton and his client, and harasses Ms. Pidanick over issues not in the Final
order. Ms. Pidanick continuously requires Mr. Horton to state law allowing “Beaufort
County School district” to be the default school district if one is not determined.
Beaufort county school district is not stated in the Final order nor can Mr. Horton
provide any law that the Beaufort county school district is required to be the default
school district. Mr. Horton takes the “because I said so” strategy against a pro se
party which is a violation of Mr. Horton’s professional rules of conduct. Ms. Pidanick
is within her rights to ask for a law to which Mr. Horton is following but he can not
state any. Mr. Horton violates Ms. Pidanick’s due process rights by bullying her and
not providing law. The email Mr. Horton used to intimidate Ms. Pidanick is included
in exhibit attached. The district is kept empty in a order to allow the child to attend
any district or school he or she would like. The school can be private or not. Ms.
Pidanick reached out to a Beaufort county school board member who in fact
confirmed the minor child was in a private daycare, not a school nor a Beaufort
county school. Mr. Horton was reprimanded by Judge Peter L. Fuge for bringing a
motion for clarification and Judge Fuge struck it down stating it was clear to Mr.
Horton. This is harassment, fraud, decrepit, outrageous conduct, civil rights
violations of 18 U.S.C. Sections 241 and 242 plus other tort causes of action against
Ms. Pidanick.
2. On December 6th 2016 Attorney Horton sent a letter to Mother Jakkie advising her to
remove content on her Facebook account in as much as it is defamatory in nature.
3. On December 8th 2016 Ms. Pidanick sent attorney Horton a communication stating
that the content was factual in nature, had been filed with the Beaufort County Family

35

The Supreme Court Of The United States, Case No. 19-1462

Court, and that she was asserting a litigation privilege and truth as a defense claim.
On November 16th 2016, attorney Horton filed a motion with the Beaufort county court
advising them the Facebook post was defamatory and motioned the court to remove it.
On January 17th 2017, the court entered an order stating 20 days in jail with 4192.00 to be
paid to Mr Horton for Mr. Maddaloni’s lawyer fees and 500 to be paid to the court. Ms.
Pidanick was convicted of Hiding behind her 1st amendment rights and lawyers and
judges, stated Judge Guyton. The plaintiff ask for lawyer and was denied, the plaintiff
asked her motion to stay be heard before trial also denied, all rights of Ms. Pidanick were
denied.
Professor Moore writes that Fraud on the court is limited to fraud that does, or at least
attempts to, “defile the court itself,” or that is perpetrated by officers of the court “so that the
judicial machinery cannot perform in the usual manner its impartial task of adjudicating cases.”
Moore’s Federal Practice 3d f 60.21 [4][a] (3d ed. 2003). Thus, a “fraud on the court” is a fraud
designed not simply to cheat an opposing litigant, but to “corrupt the judicial process”or “subvert
the integrity of the court.” Oxxford Clothes XX, Inc. v. Expeditors Int 7, Inc., 127 F.3d 574, 578
(7th Cir. 1997); Pumphrey v. K. W. Thompson Tool Co., 62 F.3d 1128, 1131 (9th Cir. 1995)
(citation omitted); Transaero, Inc. v. La Fuerza Area Boliviano, 24 F.3d 457, 460 (2d Cir. 1994).
CONCLUSION
WHEREFORE, Jacqueline Pidanick herewith respectfully requests that this court issue
an rehearing with both complaints placed together as they were originally filed with Attorney
Horton and Mr. Maddaloni and their agents , assigns and those that act in privity with them for
violating her United States and South Carolina Constitution rights in sending her demand letters
to remove content from her Facebook account when the content is subject to Litigation Privilege

36

The Supreme Court Of The United States, Case No. 19-1462

and Truth as stated therein be warned and sanctioned. Damages for Officers harassment, abuse of
power and intimidation. She prays for her damages in the amount of 100,000 and reasonable
attorney fees, 70,000 for legal training to fight back against such corruption now proven. These
cases are merely a drop in the bucket when considering the dangers of a Monopoly over the
court. The Practice has become “The Unopposed Dictator” to the court in spite of the cited
Constitutional Protections. Therefore these cases also cross an unexpected threshold of “Equal
Protections” to include “Equal Prosecutions” of the actors who commit these acts of Betrayal to
their clients, this court, and the Constitution in totality. Nec curia deficeret in justitia exhibenda
I appreciate the honorable court’s time and apologize if this is incorrect. As you can see I
was always the non guilty party forced to respond and not be silent. Having PTSD and no
lawyer, standing up for myself against a huge force is hard. I just hope the law protects the
victim, the plaintiff, Ms. Pidanick deserves justice and to finally be and feel safe.

This petition is timely, a correction letter was sent May 2nd 2020, giving Ms. Pidanick till
June 30th 2020 to correct her Writ and 60 days from July 9th 2020 to amend the questions
presented . Thank you I have worked hard. This needed to be told since riots are breaking out in
the street over police misconduct.

Thai

>u,

Jacqueline Pidanick
^ 262 Old Bridge Drive
Bluffton, SC 29910
Telephone: 843.338.6278
Email: JakkiePidanick@vahoo.com

37

The Supreme Court Of The United States, Case No. 19-1462

I declare under penalty of perjury that the foregoing is true and correct.
Date: August 3rd 2020
JacquelinePidaniok

#Metoo registered victim, PARALEGAL,Masters in Law from Purdue
#beloud founder (creating oversight in family court)

38

The Supreme Court Of The United States, Case No. 19-1462

The

SUPREME COURT OF THE UNITED STATES
No. : 19-1462

Jacqueline Pidanick
vs.
Paul C. LaRosa, III AND Chris Sankowski

On Petition For A Writ Of Certiorari To The United State Court Of Appeals
For The Fourth District

PETITION FOR WRIT OF CERTIORARI SERVICE
JACQUELINE PIDANICK
Pro Se
Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina
29910
Jakkiepidanick@vahoo.com
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston, South Carolina 29407
August/rd 2020

39

The Supreme Court Of The United States, Case No. 19-1462

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
appellate's Supreme Court Petition For Writ of Certiorari, via e-mail and USPS Priority mail, postage
prepaid, this fkugt$6 2020. Pursuant to Sup. Ct. R. 29(5)(c) and 28 U.S.C. § 1746, declaration is included
herein.

[See Attached Service List]

,in:

iANICK

Pro Se
Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina
29910
Jakkiepidanick@vahoo.com
Date: August %d 2020
Service list
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston, South Carolina 29407

40

The Supreme Court Of The United States, Case No. 19-1462

APPENDIX TABLE OF CONTENTS
ARTICLES

APPENDIX A. Article, The Daily Counter, March 2020, Nicolas Knight, Jacqueline Pidanick
debuted help to protect her daughter. Family court misconduct confirmed
APPENDIX B. National File, March 13th 2020, Patrick Howley, Family Court Whistleblower
Complaint Filed To House Oversight Committee. Family court abuse confirmed.
APPENDIX C. FITSNEWS, July 2, 2019, FITSNEWS, Jakkie Persistent A lowcounrty women
goes after alleged court abuse.
APPENDIX D. The Daily Counter, March 2020, Nicolas Knight, Out Cry OfParent On Ubeloud
Movement Facebook Post.
APPENDIX E. The Daily Counter, February 2020, Nicolas Knight, Family Court: The
Aftermaths.
DOCUMENTS
APPENDIX F Documents, Complaintfor Injunction Relief and First Amendment Retaliation,
Jan. 31st 2017
APPENDIX G Documents, BriefIn Support OfPlaintiff’s Motion For A Temporary Restraining
Order Against First Amendment Retaliation. Jan. 31st 2017
APPENDIX H Documents, Order, Roseboro Order to Plaintiff March 14th 2017
APPENDIX I Documents, Order, March 15th 2017
APPENDIX J Documents, Response Brief, Plaintiff’s Motion For Leave To File A First Amend
Complaint And Add Defendant’s. May 5 th 2017
APPENDIX K Documents, First Amended Complaint For Injunctive Relief 42 USC SEC, 1983,
First Amendment Retaliation, Abuse Of Process and Intentional Infliction OfEmotional Distress.
May 5th 2017
APPENDIX L Documents, BriefIn Support OfPlaintiff’s Motion For A Temporary Restraining
Order Against First Amendment Retaliation. Jan. 25th 2017
APPENDIX M Documents, Order, June 6th 2018

.41

The Supreme Court Of The United States, Case No. 19-1462

APPENDIX N Documents, Affidavit, AffidavitOf Unfair State and Federal Trial Court
Proceedings. Jan. 14th 2019
APPENDIX O Documents, Order, Jan. 30th 2020
APPENDIX P Documents, Petition For Rehearing, March 3rd 2020
APPENDIX Q Documents, Report and Recommendation and Order, March 15th 2019
APPENDIX R Documents, Order, Denise Rehearing, March 20th 2020/
APPENDIX S Documents, Notice OfAppeals, April 22nd 2019
APPENDIX T Documents, INFORMAL BRIEF, May 31st 2019
APPENDIX U Documents, Summary Judgement. April 23rd 2019
APPENDIX V Documents, REPLY TO DEFENDANTS INFORMAL BRIEF, * YAHOO POST
IN QUESTION ATTACHED
CD

ATTACHED CD OF RECORDING OF SLED given July 9th 2020 to the court

42

